RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-1302
David Shinn,
Petitioner,
v.
George Russell Kayer,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Jean-Claude André, certify
that the Brief in Opposition in the foregoing case contains 8,952 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 19, 2020.
/s/ Jean-Claude André
JEAN-CLAUDE ANDRÉ
SIDLEY AUSTIN LLP
555 West Fifth Street
Los Angeles, CA 90013
(213) 896 6000

